               Management Deficiency Report:
               General Services Administration
               Public Buildings Service

               2010 WESTERN REGIONS CONFERENCE 

               April 2, 2012




1800 F Street, NW I Washington, DC 20405         www.gsaig.gov
                    U.S. General Services Administration
                    Office of Inspector General




April2, 2012


MEMORANDUM FOR 	              MARTHA N. JOHNSON
                              ADMINISTRATOR (AJ ­

FROM: 	                       BRIAN D. MILL
                              INSPECTOR GENERAL (J)

SUBJECT: 	                    Final Management Deficiency Report
                              Public Buildings Service


Our final management deficiency report on the Public Buildings Service 2010 Western Regions
Conference is attached. We will publish the report with your response concurring with our
recommendations and outlining the steps you are taking to prevent such waste and abuse from
occurring in the future.

Thank you for all the assistance and courtesies extended to our staff during this review. Should
you have any questions or require additional information, please contact me or have a member of
your staff contact Assistant Inspector General for Investigations Geoff Cherrington on (202) 50 1­
0035.


Attachment




                             1800 F Street, NW, Washington, DC 20405
                             TABLE OF CONTENTS


Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



Summary of Investigation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3



     Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3



     Excessive Spending on Conference Planning . . . . . . . . . . . . . . . . . . . . . . 3



     Improper Contracting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4



       Original Solicitation and Agreement with M Resort . . . . . . . . . . . . . . 4


       Revised M Resort Agreement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


       Contract for Team-Building Exercise . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


       Contract for Audio-Visual Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7



     Excessive Spending on Food . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7



       Contract Provisions Regarding Food . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


       Rules Governing Food Expenditures . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


       Questionable Expenditures for Food . . . . . . . . . . . . . . . . . . . . . . . . . . . 9



     Other Impermissible and Questionable Expenses . . . . . . . . . . . . . . . . . 11



     Individual Impermissible and Questionable Actions . . . . . . . . . . . . . . . 12



     GSA’s Over the Top Approach to the Conference . . . . . . . . . . . . . . . . . 13



     Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14



Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15



Management Response. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16



     Appendix


                                         EXECUTIVE SUMMARY


The Public Buildings Service (PBS) of the General Services Administration (GSA) held its
biennial Western Regions Conference (WRC), which had approximately 300 attendees, in
October of 2010, at the M Resort Spa Casino (M Resort) just outside Las Vegas, Nevada. The
GSA Deputy Administrator requested that the GSA Office of Inspector General (OIG)
investigate allegations of possible excessive expenditures and employee misconduct in
connection with the 2010 WRC.

The OIG found that many of the expenditures on this conference were excessive and wasteful
and that in many instances GSA followed neither federal procurement laws nor its own policy on
conference spending. Conference costs included eight off-site planning meetings and significant
food and beverage costs. The total cost of the conference was over $820,000, broken down as
follows:

          Phase                     Description                                                        Costs
          Pre-Conference            Travel, Catering, Vendors, and Other Hotel Costs                   $136,504
          Conference                Travel, Catering, and Vendors                                      $686,247
          TOTAL                                                                                        $822,751

Our findings included the following:

       •		 GSA spending on conference planning was excessive, wasteful, and in some cases
           impermissible. To select a venue and plan the conference, GSA employees conducted
           two “scouting trips,” five off-site planning meetings, and a “dry run.” Six of these
           planning events took place at the M Resort (the conference venue) itself. Travel
           expenses 1 for conference planning totaled $100,405.37, and catering costs totaled over
           $30,000. GSA spent money on refreshment breaks during the planning meetings, which
           it had no authority to do, and the cost of catered meals at those meetings exceeded per
           diem limits.

       •		 GSA failed to follow contracting regulations in many of the procurements associated
           with the WRC and wasted taxpayer dollars. GSA actions included:

           o		 Disclosing a competitor’s proposal price to a favored contractor;
           o		 Awarding a $58,000 contract to a large business in violation of small-business set-
               asides;
           o		 Promising the hotel an additional $41,480 in catering charges in exchange for the
               “concession” of the hotel honoring the government’s lodging cost limit;
           o		 Providing free rooms to a contractor’s employees even though the contract cost
               included lodging; and


1
    “Travel costs” or “travel expenses” as used in this report include per diem, lodging, and transportation costs.

                                                             1


       o		 Disclosing to the team-building contractor the agency’s maximum budget for one day
           of training, then agreeing to pay the contractor that amount ($75,000).

   •		 GSA incurred excessive and impermissible costs for food at the WRC. GSA spent
       $146,527.05 on catered food and beverages during the WRC. That spending included
       $5,600 for three semi-private catered in-room parties and $44 per person daily breakfasts.
       GSA also paid $30,207.60 – or roughly $95 per person – for the closing reception and
       dinner; attendees at that dinner included 27 guests of GSA employees and seven
       contractor employees. GSA obtained repayment for guests’ meals, but only for 23 of the
       guests and not for the entire cost of the meal.

   •		 GSA incurred impermissible and questionable miscellaneous expenses. These
       expenses included mementos for attendees, purchases of clothing for GSA employees,
       and tuxedo rentals.

   •		 GSA’s approach to the conference indicates that minimizing expenses was not a
       goal. The PBS Region 9 Commissioner/Acting Regional Administrator instructed those
       planning the conference to make it “over the top” and to make it bigger and better than
       previous conferences. Several suggestions to minimize expenses were ignored.


GSA, in its management response, concurred with our recommendations and outlined the steps it
is taking to prevent future waste and abuse.




                                               2


                                 SUMMARY OF INVESTIGATION


BACKGROUND

PBS Regions 7, 8, 9, and 10 (covering the western half of the United States) have held the WRC
since the early 1990s and now hold it every other year. The conference typically includes about
300 people, selected from the participating regions’ thousands of employees. The WRC’s
purpose has been described variously by different PBS officials as principally offering training in
job skills; an exchange of ideas between the “higher-ups” in the four regions; and a combination
of those things.

The 2010 WRC, which took place from October 25 through October 29, 2 was hosted by Region
9. PBS chose “A Showcase of World-Class Talent” as its theme; the conference was to
“celebrate, share, and showcase the diverse professional and personal talents of GSA associates.”
GSA considered this theme a good match for the Las Vegas location, which, as GSA stated, has
long “been a destination for talented musicians, dancers, magicians and showmen” to “showcase
their talents to the international audience Las Vegas attracts.” GSA created an internal website
with information on the conference, including pictures and videos of conference events, which
was taken down on March 23, 2012.

The GSA Deputy Administrator requested that the OIG investigate allegations of possible
excessive expenditures and employee misconduct in connection with the 2010 WRC. The
allegations included concerns with the team-building exercise, donation of bicycles to charity,
and the costs of the conference. In reviewing these allegations, the OIG conducted interviews
and reviewed contract files, correspondence, invoices, and other documents related to the WRC.
On May 3, 2011, the OIG provided GSA management an interim presentation communicating
many concerns regarding the WRC. The M Resort provided the most recent set of documents on
January 13, 2012. Investigations are ongoing regarding a number of issues addressed in this
report.

EXCESSIVE SPENDING ON CONFERENCE PLANNING

GSA held eight scouting and off-site pre-conference meetings, costing over $130,000, to plan
this conference. Six were held at the conference site. Below we discuss the pre-conference
planning trips and their cost.

GSA published a notice of its planned procurement on February 2, 2009. The subsequent
conference planning meetings included the following:

    March ’09             Five GSA employees conducted a “scouting trip” to visit nine Las Vegas-
                          area hotels.
    March ’09             Fifteen GSA employees returned to visit two of the nine hotels again,
                          staying at the M Resort and the Ritz-Carlton.

2
    The morning of Monday, October 25, and all of Friday, October 29, were travel days.

                                                          3


  August ’09         Seven GSA employees stayed at the M Resort for a planning meeting.
  November ’09       A second WRC planning meeting, attended by 11 GSA employees, was
                     held at the M Resort following Region 9’s leadership council meeting.
  March ’10          Sixteen GSA employees stayed at the M Resort again for a planning
                     meeting.
  June ’10           Nine GSA employees attended another planning meeting, this one at a
                     Marriott Hotel in Denver, Colorado.
  August ’10         Twenty-one GSA employees attended a conference planning meeting at
                     the M Resort.
  October ’10        Thirty-one GSA employees traveled to the M Resort for a “dry run” of the
                     conference to be held later that month.

These off-site meetings cost the government over $130,000, including:

   •		 A total of $100,405.37 in employee travel costs.

   •		 Significant spending on catered food and beverages during the various pre-conference
       trips to the M Resort, totaling over $30,000 for the scouting trip, four pre-planning
       meetings, and dry run. These charges included $57.72 per head lunches ($44 for lunch
       plus beverages and a 22% gratuity) and $48.80 breakfasts ($40 plus a 22% gratuity).

   •		 Other expenses, such as audio-visual services and printing costs.

IMPROPER CONTRACTING

GSA failed to follow contracting regulations in many of the procurements associated with the
WRC and wasted taxpayer funds. Below we discuss (1) the original solicitation and agreement
with the hotel, (2) the revised hotel agreement, (3) the contract to provide a team-building
exercise, and (4) the contract for audio-visual services.

Original Solicitation and Agreement with M Resort

On February 2, 2009, PBS posted on the Federal Business Opportunities website a combined
synopsis and solicitation for its proposed acquisition of hotel space for the WRC. The
solicitation sought proposals for single-occupancy sleeping rooms and meeting space during
three possible date ranges, the preferred range being October 25-28, 2010. It specified that a
“Cyber Café Room” and a conference-style office for 20 people must be available from Sunday
through Friday, and that Monday through Thursday GSA required a conference room that would
hold 275-300 people. The solicitation also described food and beverage requirements. This
included a cash bar on Monday evening, a closing dinner on Thursday evening, breakfast and
“AM/PM Breaks” Tuesday through Thursday, and a lunch on Wednesday. The solicitation also
requested that offerors provide their price lists for food and “indicate discount off menu prices, if
applicable.” The acquisition was open to hotels in Las Vegas and the commuting area of
McCarran Airport with both sleeping rooms and meeting rooms, and which could offer lodging
rates “within prevailing Government per diem (currently $105.00/night).”
                                                 4


        Role of Location Solvers

Immediately after posting the solicitation on the Federal Business Opportunities site, a GSA
national event planner sent a copy of it to the sales representatives of national hotel chains and to
Location Solvers, a private company that assists organizational clients in finding venues for
conferences. Location Solvers then informed the M Resort and other independent Las Vegas
hotels about GSA’s interest in acquiring a conference facility.

In making its proposal, the M Resort contacted GSA through Location Solvers; Location Solvers
also assisted GSA in negotiating pricing and other terms of the agreements for the various trips
GSA employees made to the M Resort. In exchange for these services, Location Solvers
received a $12,601.50 commission from the M Resort. The M Resort’s willingness to pay over
$12,000 as a finder’s fee strongly indicates that further discounts might have been available to
GSA if GSA had contacted the hotel directly, rather than working through Location Solvers.
Since GSA already employs several full-time event planners, the use of Location Solvers seems
redundant and wasteful.

        Original Agreement

GSA first entered an agreement with the M Resort on May 8, 2009. The agreement was signed
by a national event planner, who had a contracting officer’s warrant limited to $100,000. That
agreement did not comply with the Federal Acquisition Regulation. Weaknesses included the
following:

    •		 That agreement required GSA to pay a $50,000 fee if the event were cancelled. That fee
        increased to $200,000 (which is above the event planner’s warrant) if cancellation
        occurred after May 1, 2011. Exclusive of lodging costs, which were to be paid by
        individual employees, the original projected cost was $92,720; the final cost was
        $153,975.60.

    •		 The agreement was missing many clauses that statutes and regulations required to be
        included in contracts with the federal government.

    •		 Although the solicitation stated the government-approved lodging rate was subject to
        change, the agreement set forth a nightly lodging rate of $105, without noting the
        approved rate might change. 3

Revised M Resort Agreement

One month before the conference itself, on September 21, 2010, a contracting officer with a $10
million warrant (rather than the event planner, who had a $100,000 warrant) signed a revised
3
  As discussed later, the government-approved lodging rate dropped to $93, which led to GSA making numerous
“concessions” to the hotel to obtain the lodging price reduction.

                                                    5


agreement with the M Resort. That agreement stated that the standard commercial agreement
terms mandated by the Federal Acquisition Regulation took precedence over the M Resort’s own
standard terms and reduced the nightly rate to $93, because the federal rate ceiling had dropped
after GSA signed the initial agreement. Because regional officials did not inform the recently
assigned contracting officer that GSA had published a solicitation in February 2009, he prepared
a written justification for procuring facilities from the M Resort on a sole-source basis – without
advertisement or competition. He argued that it was “a very time sensitive procurement” and
that it would have been too costly “to review each and every site.” That a contracting officer
prepared a sole-source justification for a procurement that was in fact advertised is indicative of
the carelessness of GSA’s planning of the conference. 4

Contract for Team-Building Exercise

GSA awarded a $75,000 contract to Most Valuable Performers (also known as Delta4) to
provide a morning team-building exercise during the conference, followed by an afternoon
bicycle-building project that would use the new teamwork skills. As part of the contract, the
vendor purchased the 24 bikes used for that project. That contract suffered from significant
irregularities:

    •		 A GSA program director told the vendor that its initial offer of almost $125,000 was too
        high. At the vendor’s request, the program director disclosed that GSA’s maximum
        budget for one day of team-building training was $75,000. GSA then awarded the
        contract at this price.

    •		 The goal of the bicycle-building project was that employees would work together in an
        act of service to those in need. 5 Therefore, GSA officials wanted participants to see the
        bicycles donated to the children of the local Boys’ and Girls’ Club during the conference.
        However, if the government acquires property, it may only dispose of that property
        pursuant to the Federal Surplus Property Donation Program – created by GSA itself to
        enable all federal agencies to comply with the Property Act. In order to avoid the
        requirements of the Property Act, GSA specified that the bicycles would remain at all
        times the property of the team-building provider. Even though GSA specified the
        bicycles were the property of the provider, GSA selected the recipient of the bicycles
        (from a list provided by the vendor); this action appears inconsistent with the assertion
        that the vendor owned the bicycles.




4
  In addition, federal conferences may only be held at a hotel that is on FEMA’s list of Fire Safety Act-approved
accommodations. The M Resort is not. Although the solicitation posted on Federal Business Opportunities required
that the venue comply with this requirement, GSA’s eventual contract with the M Resort was silent on the subject.
This requirement may be waived, but we found no evidence of a waiver.
5
 One employee suggested that if GSA wished to indicate its commitment to service, employees should voluntarily
work on a service project after work hours rather than on the clock; this suggestion was ignored.

                                                       6


Contract for Audio-Visual Services

GSA awarded Royal Productions a $58,808 contract 6 for audio-visual services. The flaws in this
procurement included the following:

       •		 Prior to selecting a vendor for these services, GSA was required to publish a solicitation
           on Federal Business Opportunities, but did not do so. 7

       •		 Federal regulation also provides that contracts in this dollar amount are “reserved
           exclusively for small business concerns.” Royal Productions is not a small business for
           purposes of this type of contract.

       •		 GSA personnel provided the quote from the competing offeror for the audio-visual
           contract to Royal Productions, enabling it to present a winning bid. Disclosing source
           information is prohibited.

       •		 GSA paid the housing expenses of Royal Productions employees twice. Royal
           Productions’ contract included $1,962 for “technical crew housing,” comprised of $110
           per night for three rooms at six nights each. However, GSA also provided the Royal
           Productions crew with twenty room-nights (four rooms for five nights each) out of its
           “comped” rooms. (The M Resort contract provided for one free room-night for each 50
           paid room-nights.) Had GSA not provided these rooms to the Royal Productions
           employees, it could have used them for GSA employees, reducing the cost by $1,860
           (twenty room-nights at $93 each).

EXCESSIVE SPENDING ON FOOD

GSA expenditures on food, as provided for in the contract and in actuality, were excessive, and
in several cases, impermissible.

Contract Provisions Regarding Food

GSA’s original contract with the M Resort included a food and beverage minimum of $76,000,
exclusive of gratuity – which was set at 22%. However, in September of 2010, GSA contacted
the M Resort seeking a reduction of the nightly room rate to the new government rate of $93.
Recognizing that “this would in essence cost the hotel $16,800.00,” GSA offered the hotel
“concessions.” These included increasing the food and beverage minimum to $110,000
($134,200 with gratuity), which included adding a cocktail reception before the Thursday night



6
    This amount was later increased by $3,000.
7
    GSA took disciplinary action against an employee in connection with this failure.

                                                            7


dinner and a catered breakfast on Friday morning. GSA also advised the hotel that “[o]ur host[8]
is having a post function wrap up party in his loft suite after dinner Thursday bringing in
approximately $2K to the room service team.” As an additional concession, GSA said it would
attempt to book another event at the hotel in March 2011, noting that “GSA absolutely loves this
property” and “would gladly share any future leads with M Resort.” 9

The government may not enter into contracts without determining that pricing is fair and
reasonable. A month before the conference, the contracting officer sent regional personnel an
email asking whether they had negotiated the food pricing, or determined that the prices were
fair and reasonable. He also noted that the breakfasts cost $34 or more, while employees’
allowances for breakfast are much lower ($12 for Las Vegas). The regional event planner
responded that GSA had simply accepted the hotel’s menu prices that any customer would have
paid, as “[w]e used the . . . increase” in catering costs to “justify” the hotel honoring the
government lodging rate.

Rules Governing Food Expenditures

A brief summary of the rules governing food expenditures follows. As discussed below, many
of the GSA food expenditures violated these rules or were otherwise questionable.

    •		 Federal employees traveling for work are paid for their lodging costs plus a fixed amount
        for meals (“per diem”). In 2010, the meal and incidental expenses allowance for Las
        Vegas was $71 per day. If the government provides employees with meals, they must
        deduct a portion of this amount: $12 for breakfast, $18 for lunch, and $36 for dinner.
        Employees attending the WRC were instructed beforehand to make these deductions for
        the meals provided, and most of them did so.

    •		 GSA policy states that if conference planners use a contract to purchase meals for
        employees (rather than allowing employees to find their own meals), the contract pricing
        may not exceed the regulatory limitations on meal expenses.

    •		 Agencies may pay for meals or “light refreshments” for their employees if these are
        necessary to achieve the objectives of a training program or an official conference.
        Agencies may not pay for food (other than the set meal allowance for employees who are
        traveling) at “‘day-to-day’ meetings” that “involve discussions of the internal procedures
        or operations of the agency.”

    •		 Agencies also may pay for food for nonfederal employees at training, such as conference
        speakers, when necessary to the effective accomplishment of the training function.
8
 Since the party on Thursday night occurred at the behest of the PBS Region 9 Commissioner/Acting Regional
Administrator, it appears the agency considered this employee to be the conference’s “host.”
9
  Favoring the M Resort in future government procurements would be improper; the agency’s obligation is to
conduct all conference and acquisition planning so as to minimize costs and act in the best interest of the United
States.

                                                        8


     •		 Agencies may pay for food for contractor employees who are traveling to perform their
         duties, to the extent specified in their contracts.

     •		 Agencies may pay for food for agency employees at an award ceremony if this would
         make the ceremony more effective. It is also permissible at an award ceremony to pay
         for refreshments for a guest (for example, a spouse) of an employee who is receiving an
         award.

Questionable Expenditures for Food

GSA spent $146,527.05 on catered food and beverages during the WRC itself. That amount
breaks down as follows:

                   Food and Beverage Catering                                Costs
                   Light Refreshments and Breakfast Buffets                  $ 79,511
                   In-Room Parties                                           $ 5,600
                   Networking Reception                                      $ 31,208
                   Cocktail Reception and Award Dinner                       $ 30,208
                   TOTAL                                                     $146,527

Specific questionable expenditures included the following:

     •		 The “networking reception” on the conference’s first evening included 400 pieces of
         $4.75 “Petit Beef Wellington,” 400 “Mini Monte Cristo Sandwiches” at $5.00 each,
         1,000 sushi rolls for $7.00 apiece, 150 units of a $19 per person “American Artisanal
         Cheese Display,” and 225 units of a $16 per person “Pasta Reception Station.” Also
         during that reception, GSA paid $525 for two hours of “bartender service fees” for a cash
         bar; 10 the total cost of the reception was $31,208. We understand commemorative coins
         were presented at that reception. We do not believe this expense can be justified as either
         an award ceremony or light refreshments, based either on the nature of the event or the
         amount spent – over $100 per person.

     •		 Meal expenses exceeded per diem limits. For example, GSA provided breakfast for the
         WRC’s three mornings at a cost of $44 per person, or $32 per person per day more than it
         would have spent had it simply allowed employees to purchase their own breakfasts and
         claim the travel allowance set by regulation – a cost of $29,568 over the per diem
         allowance for breakfasts at the WRC. 11 As another example, the total cost for the closing

10
  There is no evidence that GSA paid for any alcoholic beverages during the WRC. Alcohol was apparently
purchased with personal funds, and is not included in this report.
11
   Twenty-five employees who worked on planning the conference received a $48.80 catered breakfast the morning
after the conference’s concluding dinner, representing an additional $920 in cost over the individual employees’
meal allowances.

                                                       9


         dinner was $73.20 per person – $37.20 more than the allotted per diem. Moreover, as
         discussed above, a month before the conference GSA added a cocktail reception before
         the closing dinner as a “concession” to offset the reduction in the nightly lodging rate.
         That reception included 300 shrimp at $4.00 each, and 300 items of $5.00 “Boursin
         Scalloped Potato with Barolo Wine Braised Short Ribs.” The total food bill for the
         evening’s events was $30,207.60 (or $95 per person based on 318 attendees), which,
         again, included $525 in bartender service fees for a cash bar. This made the total cost
         $59 per person more than the employee travel allowance for dinner, a total of $18,760
         over the per diem allowance. 12

     •		 GSA impermissibly purchased food for non-employees. Examples include the following.
         A total of 299 GSA employees attended the conference but GSA purchased the dinner on
         the final day of the conference for 318 people. The list of attendees GSA prepared
         included 27 personal guests and seven of the agency’s embedded contractor employees in
         addition to 284 GSA employees. Twenty-three GSA employees paid $60 apiece for the
         dinners of their personal guests. This figure did not include the 22% gratuity added to
         each meal, however (a total of $303.60 for the 23 guests). Moreover, GSA paid the M
         Resort for meals for guests who were expected to attend but canceled before the event,
         but did not charge employees for those guests. The seven embedded contractor
         employees did not pay for their dinners. Relatives, who were not employees, also ate
         agency-provided meals throughout the conference. We question whether the meals
         purchased for personal guests and contractor employees were permissible.

     •		 GSA officials also hosted several semi-private “parties” in their own hotel rooms or
         suites, which were catered at taxpayer expense. On the evening before the conference
         officially began, two regional officials hosted a party in an upgraded room. Catering for
         the event totaled $922.90. The stated purpose of the event was for those organizing the
         conference (who had arrived a day early) to become acquainted with one another. Two
         nights later, the PBS Commissioner hosted an essentially celebratory party in his loft
         suite for GSA senior officials, at a cost of $1,960. 13 Neither of these parties fit any legal
         authority for GSA to spend funds on food.

     •		 On the last night of the conference, after the closing dinner, the PBS Region 9
         Commissioner/Acting Regional Administrator hosted a third party, in the empty loft suite
         vacated by the PBS Commissioner, who had already departed. GSA had retained the suite

12
   The M Resort did not charge the agency a room rental fee for conference space, either at the pre-planning
meetings or at the WRC itself. Thus, the catering costs to some extent compensate for usage of the facility as well.
However, one must also consider that during the WRC itself, the conference occupied 314 of the hotel’s 390 rooms,
making the agency the only likely user of the meeting space. Moreover, less expensive breakfast and refreshment
options were available. Agency policy states that if hotels offer “packaged” costs (as here, for meeting space and
catering), the agency must still obtain “a total cost for subsistence [i.e., food] items,” so the agency can determine
“that the maximum per diem rates have not been exceeded.” That did not occur here.
13
  As noted previously, these amounts do not include any alcoholic beverages, which were purchased with personal
funds.

                                                         10


        for use as a “hospitality suite.” 14 This party cost $2,717.09. Conference organizers and
        regional “ambassadors” were invited; regional officials played a slide show of the
        conference, and the ambassadors received awards and “souvenir books.” While
        purchasing food for award ceremonies is authorized, the event’s qualification as an award
        ceremony is weak, at best.

     •		 Because the pre-conference meetings were for planning, not training, GSA was not
         authorized to pay for the refreshment breaks at these meetings. As with the conference
         itself, meal charges exceeded the traveling employees’ meal allowances. 15

OTHER IMPERMISSIBLE AND QUESTIONABLE EXPENSES

GSA made various impermissible and questionable expenditures unrelated to food, including
improperly purchasing mementos for conference attendees.

     •		 GSA policy provides that agency funds “are not available to purchase memento items for
         distribution to conference attendees as a remembrance of an event.” Contrary to this
         policy:

        o		 At the closing-night dinner, all participants received a “yearbook” containing pictures
            of all those attending the conference, taken when they checked into the hotel. GSA
            also printed souvenir books for the regional ambassadors. These costs totaled $8,130.

        o		 GSA purchased numerous other items for distribution to conference participants.
            Canteens and carabiners cost $2,781.50, and shirts for all conference participants for
            the team-building activity were $3,749.40.




14
   GSA selected this suite as one of its “comped” rooms. An internal GSA email to the PBS Region 9
Commissioner/Acting Regional Administrator noted the options of giving the room to a GSA Associate
Administrator who was checking in on the same day the PBS Commissioner checked out, or keeping it “as a
‘hospitality’ suite (where you can have your party Thursday night).”
15
   Additional questionable expenses included such items as two birthday cakes, one for $120 and one for $50, for
pre-conference planning attendees and an ice cream station costing $292.80 for 24 children brought in by the Boys’
and Girls’ Club to receive the bicycles GSA employees had assembled.

                                                       11


       o		 GSA spent $6,325 on commemorative coins “rewarding” all conference participants
           (as well as all regional employees who did not attend the conference) for their work
           on Recovery Act projects, along with velvet boxes to hold the coins. These did not
           qualify as permissible awards because the coins’ design, which appears below, shows
           that they were intended to be mementos of the WRC.




   •		 GSA spent $1,840 for vests for the 19 “regional ambassadors” and other employees, and
       $393.90 for the rental of tuxedos worn by three employees who acted as masters of
       ceremonies at the awards dinner.

INDIVIDUAL IMPERMISSIBLE AND QUESTIONABLE ACTIONS

GSA employees may not solicit or accept gifts from any entity doing business with the agency,
or use their positions to induce another person to provide any benefit, financial or otherwise, to
themselves or their friends or relatives. Numerous employee actions may have violated these
prohibitions, including the following:

   •		 Before the original M Resort site visit in March of 2009, Location Solvers emailed the
       hotel to relate that an agency employee would be staying at the hotel on the night before
       the travel days for the scouting trip, and therefore was not entitled to the government rate
       or a complimentary free night. Thus, Location Solvers stated, the employee “needs a
       friend of a friend of the owner rate. (wink).”

   •		 During the second trip in March of 2009, a different employee stayed in a flat suite – with
       a connecting room for her sister and niece, apparently offered at a discount by the hotel,
       which was then working to secure the eventual contract to host the WRC.

   •		 At the behest of the spouse of a senior PBS official, a GSA event planner asked for and
       the hotel provided an adjoining room during the WRC, at the $93 government rate, for
       the spouse’s relatives. Neither the spouse nor the spouse’s relatives were agency
       employees or participants in the conference.
                                               12


     •		 During the WRC, a GSA event planner contacted the M Resort’s catering and conference
         services manager and said that she “cannot live without” a $98 purse from the hotel’s gift
         shop, asking whether the manager received a discount and “if so, will you help me?” The
         manager responded, “I can give you a $30 comp,” which was promptly accepted.

GSA’S OVER THE TOP APPROACH TO THE CONFERENCE

Federal regulations on conference planning emphasize cost reduction, stating conference
planners “must minimize all conference costs,” use government-owned conference facilities as
much as possible, and take into account “all direct and indirect conference costs.” The evidence
the OIG developed, however, showed the goal was not to minimize costs, but to be “over the
top.” That evidence included the following:

     •		 The PBS Region 9 Commissioner/Acting Regional Administrator instructed those
         planning the conference to make it “over the top,” bigger and better than previous
         conferences. Several suggestions by regional employees that costs be reined in were
         ignored.

     •		 In planning meetings, GSA personnel discussed that the theme was intended to showcase
         the business talent of the regional offices, but the emphasis was to be split between
         business talent and “theatrical talent.” Thus, the “Capstone Dinner” on the last evening
         of the conference was to have a “red carpet” and “lighthearted awards,” having “more to
         do with contribution at the conference” than job performance. Employees were told that
         the “award” ceremony was necessary so that federal funds could be spent for food;
         several employees indicated this has become something of a running joke in the region. 16

     •		 The in-room “party” on the evening of the closing dinner was hosted by the PBS Region
         9 Commissioner/Acting Regional Administrator. A relative of the host worked closely
         with the agency’s regional event planner on the food items selected for that party.
         Among other things, the employee’s relative, who is not a GSA employee and yet “co­
         hosted” the party, contacted the event planner to add more food items, commenting,
         “Knowing we have a bit more money in the budget helps.” The event planner acquiesced
         and ordered additional food, increasing costs to $2,717.09 at the government’s expense.

     •		 During scouting trips, GSA “VIPs” were shown upgraded suites that they received as a
         perk for GSA contracting with the M Resort for the 2010 WRC. Loft suites have 2,400
         square feet of space, two stories, multiple HD televisions and wet bars, and a going rate
16
   The agenda on the last day included a “Cocktail Reception” at 4:00 pm, a “Red Carpet Show” at 5:30, a “Talent
Award Showcase” at 5:50, and dinner with a speaker at 6:20. The only “awards” given during these events were
presented during the Talent Award Showcase. There were four non-monetary awards given at that ceremony for
musical performances, one for each region. The proper purpose of an awards ceremony is to give out awards
recognizing significant contributions to the efficiency and effectiveness of government operations, rather than
holding an event and giving out awards as an ancillary purpose to justify food. We do not believe the expenditures
at the reception or dinner can be explained as incident to an awards ceremony.

                                                       13


       of $1,179 per night. Flat suites have 1,440 square feet and cost $449-$599 per night.
       The contract between GSA and the M Resort provided that GSA could have two loft
       suites for five nights each at the government rate for hotel rooms; GSA used all but one
       of those nights. GSA also received six flat suites for five nights each at the government
       room rate, and used 25 of those room-nights. The value of the discount that the M Resort
       offered GSA for these 40 nights was $21,540.




                                      Luxury suites at Nevada’s M Resort. At left, a loft suite;
                                      above, a flat suite.




CONCLUSION

The excessive pre-conference planning, catering, and other costs, as well as the luxury
accommodations and overall approach, show that GSA’s planning and expenditures for the 2010
WRC were incompatible with its obligation to be a responsible steward of the public’s money.
As the agency Congress has entrusted with developing the rules followed by other federal
agencies for conferences, GSA has a special responsibility to set an example, and that did not
occur here.




                                              14 

                                 RECOMMENDATIONS


The GSA Administrator should take appropriate action to:

   •		 Ensure expenditures at all future conferences comply with all applicable regulations and
       policies, including that costs be minimized and Executive Order 13589 on Promoting
       Efficient Spending, which was issued after the date of this conference; these steps should
       include:

       o		 Minimize planning expenses for all future conferences;
       o		 Ensure food expenditures comply with applicable regulations and are necessary and
           appropriate;
       o		 Do not spend GSA money on mementos; and
       o		 Eliminate extraneous and unnecessary expenses such as vests and tuxedo rentals.

   •		 Ensure events are not improperly designated as award ceremonies in order to justify the
       purchase of food.

   •		 Ensure all regulations are followed in procurements associated with conferences,
       including:

       o		 Do not share proposals with competitors;
       o		 Follow small business set-aside requirements;
       o		 Ensure contracts adequately protect the government’s interests and include all
           required clauses;
       o		 Obtain fair and reasonable pricing on all costs;
       o		 Ensure the contracting officer has an adequate warrant and all relevant information;
       o		 Do not provide benefits to contractors outside the scope of the contract, including free
           rooms when those costs are included in the contract;
       o		 Do not request personal benefits from conference contractors.

   •		 Determine whether GSA can recover funds from Royal Productions based on GSA
       including the cost of rooms in the contract price and subsequently providing the rooms
       for free.

   •		 Determine whether GSA can recover funds improperly paid, such as for meals for non-
       employees.

   •		 Hold senior GSA officials responsible for excessive spending at conferences.




                                               15


                            MANAGEMENT RESPONSE



GSA, in its management response, concurred with our recommendations and outlined the steps it
is taking to prevent future waste and abuse. GSA’s response is contained in the Appendix.




                                             16


                                       Appendix



                                                                                  The Administrator




April 2, 2012

MEMORANDUM FOR BRIAN D. MILLER
               INSPECTOR GENERAL (J)

FROM: 	                 MARTHA JOHNSON          ~~ ~~1"1'1
                        ADMINISTRATOR (A) 	                  '/

SUBJECT: 	             Response to the "February 12, 2012
                       Draft Management Deficiency Report
                       Public Buildings Service"


Thank you for your response to our request for a review of possible excessive
expenditures and employee misconduct in connection with the 2010 Western Regions
Conference (WRC) . I appreciate the thoroughness of the Draft Management Deficiency
Report and your review of this matter. I concur with all of the recommendations in your
Report. I find the information in your Report to be very troubling as it outlines potential
violations of federal procurement laws and agency policy. The excessive spending and
other misconduct described in the report would be absolutely unacceptable under any
circumstances. But it is especially egregious at a time when the fiscal constraints facing
our nation demand that every dollar deliver the greatest value to the American taxpayer.
Such misconduct will not be tolerated at GSA

I am committed to eliminating excessive spending, promoting efficiency and ensuring
strict compliance with GSA policies and federal regulations, The Agency has internal
controls and extensive guidance in place that addresses excessive spending and what
constitutes serious misconduct. However, we recognize in this situation that the internal
controls were not adhered to, and the guidance was not followed. In order to ensure
this situation does not occur again, I have taken proactive steps to implement tighter
internal controls over conferences, finances, and procurements in order to eliminate
waste and improper or unnecessary expenditures. In addition, we are taking
appropriate disciplinary actions where warranted.

While this document outlines only those steps that address the recommendations made
in your report, GSA will be taking a number of other decisive actions to address broader
issues related to other conferences, overall risk management and internal controls, and

                                                                  U.S. General Services Administration
                                                                  1275 First Street, NE
                                                                  Washington, DC 20417
                                                                  Telephone: (202) 501-0800
                                                                  Fax: (202) 219-1243
                                      Appendix


                                         -2­

employee ethics. In response to your specific recommendations, the Agency is taking
the following direct actions:

IG Recommendation: Ensure expenditures at all future conferences comply with all
applicable regulations and policies, including that costs be minimized. Additionally,
ensure that conferences are in accordance with steps and recommendations identified
in Executive Order 13589 on Promoting Efficient Spending.

GSA Action: On August 9, 2011, I established the Office of Administrative Services
(OAS) in order to provide greater oversight and accountability for all administrative
functions within the agency. In light of your report, I am accelerating and escalating
changes that were already planned for this year. Effective immediately, functions that
will be performed by the Chief Administrative Services Officer will include:

   • 	 Oversight of contracting for conference space, related activities, and amenities;
   • 	 Review and approval of proposed conferences for relation to GSA mission;
   • 	 Review and approval of any awards ceremonies where food is provided by the
       Federal government;
   • 	 Review and approval of conference budgets as well as changes to the budget;
   • 	 Oversight and coordination with GSA conference/event planners and contracting
       officers on conference planning; and,
   • 	 Review of travel and accommodations related to conference planning and
       execution.
   • 	 Handling of procurement for all internal GSA conferences

This is effective immediately and written notice will be sent to GSA Heads of Services
and Staff Offices and Regional Administrators informing them of these changes.
The Office of Acquisition Policy, the Office of the General Counsel and the Office of
Administrative Services will develop mandatory annual training for all employees
regarding conference planning and attendance.

These changes are consistent with the OAS's broad range of functional responsibilities
that are primarily focused on internal GSA administrative policies, programs and
operations. The OAS's mission is to ensure GSA runs as cost-effectively and efficiently
as possible by developing and implementing policy and operational programs, including
but not limited to, Personal Property (Internal) Accountability, Internal GSA
Procurement, and GSA's Travel Program.

IG Recommendation: Hold senior GSA officials responsible for excessive spending at
conferences.

GSA Action: I have directed the GSA Region 9 Regional Administrator to perform a
thorough review of the conduct of the Regional Commissioner for the Public Buildings
Service in Region 9 with respect to the 2010 WRC. The Agency will take any
                                        Appendix


                                          -3­

                             be warranted based on the results of the review. The
                                        has been placed on administrative leave until
                                          review.

I have made a decision to take disciplinary action against several senior management
officials. Th is can include a range of disciplinary actions, up to and including
suspensions or removals. Further, I have directed the appropriate senior management
officials to vigorously review the matters raised in your report and determine if additional
policy and organizational changes are necessary, and if additional disciplinary actions
are warranted against other senior officials and employees.

In addition to the above, I am taking the following steps:

   • 	 Directing PBS to cancel all future Western Regions Conferences;
   • 	 Reducing PBS travel budgets for FY 2013 in Regions 7, 8, 9 and 10;
   • 	 Shifting reporting and oversight of all Reg ional PBS budgets to the Central Office
       PBS; and
   • 	 Directing the GSA Chief Financial Officer and Senior Procurement Executive to
       review contracts and expenses not only associated with the WRC, but also all
       conferences cu rrently in the planning phase, but also all conferences currently in
       the planning phase.

IG Recommendation: Ensure events are not improperly designated as award
ceremonies in order to justify the purchase of food.

GSA Action : The Chief Adm inistrative Services Officer will review and approve any
awards ceremonies where food is provided by the Federal government. This topic will
be covered in mandatory training for supervisors and managers.

IG Recommendation: Ensure all regulations are followed in procurements associated
with conferences, including the ones identified in the recommendations.

GSA Action: I have directed the GSA Office of Acquisition Policy to ensure that the
proper training courses are mandatory for contracting officers and event planners who
are tasked with conference planning, contracting and execution. Training will be annual
and mandatory. Unannounced and random Procurement Management Reviews, under
the direction of the Senior Procurement Executive, will be conducted at least quarterly.

IG Recommendation: Determine whether GSA can recover funds from Royal
Productions based on GSA including the cost of rooms in the contract price and
subsequently providing rooms for free as well as, determine whether GSA can recover
funds improperly paid, such as for meals for non-employees.
                                        Appendix


                                          -4­


GSA Action: I have directed the GSA Senior Procurement Executive to explore all
opportunities for funds recovery in this matter and take appropriate actions.

I appreciate your attention to this matter and will continue to work closely with the Office
of ln,spector General until it is resolved .
